n

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae Elijah Haahr, Paul
Gazelka, David Ralston, Ron Ryckman, Brady
Brammer, and Matt Simpson in Support of Petitions
for Writ of Certiorari in 19-1257, Mark Brnovich,
Attorney General of Arizona, et al. v. Democratic
National Committee, et al.,
19-1258, Arizona
Republican Party, et al. v. Democratic National
Committee, et al., was sent via Three Day Service to
the U.S. Supreme Court, and e-mail service to the
following parties listed below, this 1st day of June,
2020:
Oramel H. (O.H.) Skinner
Solicitor General
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
o.h.skinner@azag.gov

Counsel for Petitioners
Bruce V. Spiva
Marc Erik Elias
Perkins Coie LLP
700 Thirteenth Street N.W.
Suite 600
Washington, DC 20005-3960
(202) 434-1609
BSpiva@perkinscoie.com
MElias@perkinscoie.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com
Counsel for Petitioners
Arizona Republican Party, et al.
Jessica Ring Am unson
Sam Hirsch
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6000
JAmunson@jenner.com
SHirsch@jenner.com
Counsel for Respondent
Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Bobby R. Burchfield
Counsel of Record
Taylor T. Lankford
J. Franklin Sacha, Jr.
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 626-5524
bburchfield@kslaw.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 1, 2020.

Donna J. w@
i
V
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

•:

1 /

